Audit of USAID’s Fiscal Year 2004
Payroll Reconciliations
Audit Report No. 0-000-05-001-F
November 17, 2004




                    Washington, DC
November 18, 2004


MEMORANDUM
FOR:           Deputy CFO, David D. Ostermeyer

FROM:          IG/A/FA, Andrew Katsaros /s/

SUBJECT:       Report on Audit of USAID’s Fiscal Year 2004 Payroll Reconciliations
               (Report No. 0-000-05-001-F)

This is our final report on the subject audit. We reviewed your comments to our draft report
and included them as Appendix II to this report.

In summary, the report recommends that USAID (1) complete all outstanding fiscal year
2004 payroll reconciliations, (2) consolidate payroll desk procedures into a revised
document that includes supervisory review standards and periodic tests of controls, (3)
maintain procedural documentation related to employee salary advances, and (4) incorporate
all existing payroll procedures into a revised document that is circulated to all employees
involved in the payroll reconciliation process.

Based on our evaluation of your comments to our draft report and all supporting
documentation provided, we consider that final action has occurred on Recommendation
Nos. 1, 2, 3, and 4.

I want to express my sincere appreciation for the cooperation and courtesies extended to
Office of Inspector staff during the audit.




                                                                                        3
This page intentionally left blank.




                                      4
Table of   Summary of Results..............................................................................................6
Contents
           Background...........................................................................................................7

           Audit Objective.....................................................................................................8

           Audit Findings ......................................................................................................8




           Are USAID’s monthly payroll reconciliations with the USDA’s National
           Finance Center and Department of Treasury complete, and are established
           procedures being followed?................................................................................. 8

                                Fiscal Year 2003 and FY 2004 Payroll Reconciliations Were
                                Incomplete ................................................................................... 8

                                Payroll Accounting Procedures Need Improvement ................. 10

                                Opportunities for Improved Compliance with GAO Internal
                                Control Standards ..................................................................... 11

                                USAID's Instructions for Reconciling the Monthly Payroll
                                Should Include Additional Guidance ....................................... 14


           Evaluation of Management Comments .............................................................16

           Appendix I-Scope and Methodology..................................................................17

           Appendix II-Management Comments ................................................................18




                                                                                                                         5
Summary of   The Office of Inspector General’s (OIG) Financial Audits Division,
Results      Washington D.C. performed this audit to determine if USAID’s monthly
             payroll reconciliations with the U.S. Department of Agriculture’s
             (USDA’s) National Finance Center (NFC) and the Department of Treasury
             are complete, and if established procedures are being followed. USAID’s
             FY 2003 and 2004 payroll reconciliations with the NFC were incomplete
             and untimely. As of June 14, 2004, only the December 2003 monthly
             payroll reconciliation had been completed for FY 2004. Also, during FY
             2003, the final pay period reconciliation was not completed before USAID
             submitted audited financial statements to the Office of Management and
             Budget (OMB). Because of the delay in completing the reconciliations,
             USAID was not able to confirm the payroll information recorded in its FY
             2004 quarterly financial statements, as required by USAID’s Desktop
             Procedures – Payroll Obligation Tracking document. The payroll
             reconciliations were incomplete and untimely because the Central
             Accounting and Reporting Division (CAR) did not have the employee
             resources needed to complete the reconciliations. This occurred because
             the employee responsible for completing the reconciliations became ill, and
             CAR did not have employees that were cross-trained to perform the
             reconciliations. Although the amounts do not have a material effect on
             USAID’s overall financial statements, CAR should complete all
             outstanding FY 2004 payroll reconciliations and quarterly
             intergovernmental payroll reconciliations before the FY 04 financial
             statements are submitted to the OIG and OMB. Additionally, CAR should
             cross train employees to perform payroll reconciliations to ensure accurate
             and timely financial reporting (see page 7).

             The Accounting Division of USAID’s Office of Financial Management has
             documented procedures over the adjusted payroll information reported to
             the Cash Management and Payments Division (CMP). However, USAID
             does not have supervisory review and approval standards to ensure that all
             adjustment information reported to the CMP is accurate, complete, and
             authorized. The Accounting division does not consistently follow
             procedures to activate payroll disbursements by CMP. The Accounting
             Division processed a large volume of financial transactions, did not
             consistently follow the established procedures, and often overlooked some
             of the detailed procedures to ensure timely financial reporting for USAID.
             Additionally, periodic tests of controls were not conducted to ensure that
             established procedures were followed. Therefore, an audit trail is not
             available for internal or external review and monitoring. The existing
             procedures should be included in a revised document that describes all
             aspects of accounting for payroll expenses, including supervisory review
             and approval standards and periodic tests of controls (see page 9).




                                                                                      6
             Procedures for monitoring employee salary advance activity were not
             effectively understood by Division managers involved in the payroll
             accounting process. This understanding is an essential component of
             GAO’s Standards for Internal Control. The misunderstandings occurred
             when some of the responsibilities for reconciling, monitoring and
             accounting for employee salary advances were reassigned from a USAID
             contractor to several different FM divisions, amplified by turnover in
             USAID’s Office of Financial Management (FM). As a result, USAID
             managers were unsure of who was providing the accounting support for
             monthly employee salary advances, and internal control over accounting
             for employee salary advances became ineffective. FM should maintain
             procedural documentation on its responsibilities, and those of the NFC,
             with respect to the establishment, monitoring, and repayment of
             employee salary advances (see page 10).

             PricewaterhouseCoopers Consulting (PwC) (now part of International
             Business Machines Corporation/IBM) prepared USAID’s Payroll
             Disbursements Reconciliation Operating Procedures in FY 2001. During
             FY 2004, USAID created the Instructions for Reconciling the Monthly
             Payroll. USAID also maintains a Desktop Procedure – Payroll
             Obligation Tracking document that clarifies the various Divisions’ roles
             in the payroll obligation process. Based on OIG analysis, USAID’s FY
             2004 Instructions for Reconciling the Monthly Payroll and Desktop
             Procedure – Payroll Obligation Tracking are different from the IBM
             procedures and do not identify some specific procedures related to
             accounting for payroll expenses. This oversight occurred because of the
             recent reassignment of the reconciliation responsibilities from IBM
             contractors to USAID direct hire employees. FM should incorporate all
             IBM procedures with USAID guidance for completing the monthly
             payroll reconciliations (see page 13). Management comments are
             included in their entirety in Appendix II.


Background
             Beginning in October 2000, the Department of Agriculture’s NFC was
             responsible for processing USAID’s payroll. Every two weeks, USAID
             downloaded the NFC’s payroll information and posted it to the Agency’s
             accounting system. At the end of every month, the NFC submitted to the
             U.S. Treasury a statement of transactions1 for payroll on behalf of
             USAID. USAID personnel and a contractor then compared the payroll
             disbursements and collections that were posted to the Agency’s
             accounting system to those reported in the statement of transactions.


             1
              A statement of transactions (standard form 224) is used to communicate the
             appropriation data for agency collections and disbursements that were made in a given
             month.



                                                                                            7
                 During the FY 2003 GMRA audit,2 the Financial Audits Division noted
                 that USAID’s payroll reconciliation with the NFC and Treasury was not
                 complete. This occurred because the Agency recorded the differences
                 identified without obtaining documentation to support the nature and
                 cause of the differences, thus forcing the general ledger to agree with the
                 net disbursements reported in the statement of transactions. In
                 conducting our audit, we reviewed all areas applicable to USAID’s
                 accounting for payroll expenses, including the overall payroll
                 reconciliation, obligation, and disbursement processes.

                 The audit was conducted to answer the following question:
Audit
Objective        Are USAID’s monthly payroll reconciliations with the USDA’s National
                 Finance Center and Department of Treasury complete, and are
                 established procedures being followed?

                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings
                 Summary: USAID’s monthly reconciliations with the NFC and Treasury
                 were not complete or timely. Payroll accounting procedures need
                 improvement and should be incorporated into a revised document
                 describing all aspects of the payroll accounting process, including
                 supervisory review and approval standards and periodic tests of controls.
                 Opportunities for improved compliance with GAO internal control
                 standards and procedures for monitoring employee salary advance
                 activity were noted. USAID’s instructions for reconciling the monthly
                 payroll should include additional guidance.




                 Fiscal Year 2003 and 2004 Payroll Reconciliations Were Incomplete

                 USAID’s FY 2003 and 2004 payroll reconciliations with the USDA’s
                 NFC were incomplete and untimely. As of June 14, 2004, only one
                 monthly payroll reconciliation had been completed for fiscal year 2004.
                 Also, during FY 2003, the final pay period reconciliation was not
                 completed before USAID submitted financial statements to the OIG and
                 OMB. These were incomplete and untimely because CAR did not have
                 the employee resources needed to complete the reconciliations. This
                 occurred because an employee responsible for completing the
                 reconciliations became ill, and CAR did not have employees that were
                 2
                  FY 2003 Government Management Reform Act Audit, Audit Report No. 0-000-
                 04-001-C, November 14, 2003



                                                                                          8
cross-trained to perform the reconciliations. Payroll expense information
was therefore reported in the Agency’s year-end and quarterly financial
statements without verification. The absence of monthly reconciliations
has prevented USAID from recording monthly payroll disbursements,
and management was provided with inaccurate payroll expense
information. The absence of timely and complete payroll reconciliations
also increases the potential for incorrect accounting entries, misuse of
Agency funds, the posting of inaccurate intragovernmental transactions,
and undetected errors or misstatements.

The Government Management Reform Act (GMRA) of 1994 mandates
that the Federal Government publish consolidated audited financial
statements. USAID has incorporated the GMRA into ADS 594.3.1,
Preparation of USAID’s Annual Financial Statements, which states:
“The Office of Financial Management (M/FM) must submit complete
cumulative interim financial statements to the USAID Office of
Inspector General (OIG) within four weeks at the close of each quarter
during the fiscal year. M/FM must also submit USAID’s final annual
financial statements to the OIG by October 31 at the close of USAID’s
fiscal year.”

Federal entities are also required to perform quarterly intragovernmental
reconciliations beginning in FY 2003 per OMB Bulletin No. 01-09,
Form and Content of Agency Financial Statements, dated September 25,
2001. Fundamentally, publishing the consolidated financial statements
free from material misstatement requires that Federal entities incorporate
sufficient internal controls over financial reporting with respect to
intragovernmental transactions.

Monthly payroll reconciliations are required to detect irregular and non-
recurring payroll expenses provided by NFC to USAID. The absence of
timely and complete payroll reconciliations increases the potential for
incorrect accounting entries, misuse of Agency funds, the posting of
inaccurate intragovernmental transactions, and undetected errors or
misstatements.     Without these reconciliations, USAID can not
adequately investigate irregularities reported by NFC. As a result of the
OIG audit, an additional seven months of outstanding payroll
reconciliations were completed by September 8, 2004. The OIG noted
no discrepancies with these reconciliations that were completed
subsequent to June 14, 2004. The OIG review of these additional items
was limited to the reconciliation process and did not include a review of
the associated accounting entries.

USAID’s monthly payroll reconciliations are required to develop the
source document supporting a monthly payroll disbursement entry.
Because the monthly reconciliations were not completed and these



                                                                   9
source documents were not available, IBM entered accrued payroll
expense information, on USAID’s behalf, so that the FY 2003 yearend
and FY 2004 1st and 2nd quarter financial statements would be timely.
As of May 31, 2004, payroll disbursement information from December
2003 was still not entered into USAID’s accounting records. As a result,
USAID’s official accounting records do not accurately reflect payroll
expense or disbursement information and management does not have
accurate payroll expense or disbursement data available in its official
accounting records. Although the amounts would not be material to the
overall financial statements, the potential for inaccurate interim and
yearend financial reporting is increased.

       Recommendation No. 1: We recommend that the Central
       Accounting and Reporting Division complete all fiscal year
       2004 outstanding payroll reconciliations before the fiscal year
       2004 financial statements are presented to the Office of
       Inspector General and the Office of Management and
       Budget. Additionally, Central Accounting and Reporting
       should cross-train employees to perform payroll
       reconciliations to ensure accurate and timely financial
       reporting.

Payroll Accounting Procedures Need Improvement

  Summary: USAID’s Office of Financial Management has documented
  procedures over monthly adjusted payroll obligation information
  reported to CMP, and these procedures are contained in CAR’s Desktop
  Procedure – Payroll Obligation Tracking document. However, the
  Accounting Division does not consistently follow the procedures to
  activate the payroll disbursement by CMP, and the procedures do not
  contain supervisory review and approval standards to ensure that all
  adjustment information reported to CMP is accurate, complete, and
  authorized. The Accounting Division processed a large volume of
  financial transactions and did not consistently follow established
  procedures. Often, Accounting overlooked some of the detailed
  procedures to ensure timely financial reporting for USAID.
  Additionally, periodic tests of controls were not conducted to ensure that
  established procedures were followed. As a result of the procedures not
  being followed, an audit trail is not always available for internal or
  external review and monitoring.           The likelihood of inaccurate,
  incomplete or unauthorized postings is increased without supervisory
  review and approval standards and periodic tests of controls.




                                                                       10
ADS 596.3.1, Establishing Management Controls, states that USAID
managers and staff must develop and implement appropriate, cost
effective management controls for results-oriented management, which
reasonably ensure that revenues and expenditures are properly recorded
and accounted for, and that assets are safeguarded against waste, loss,
unauthorized use or misappropriation. During its review of CAR’s
Desktop Procedure – Payroll Obligation Tracking document, the OIG
noted that supervisory review procedures were not included and that this
affected the overall internal control environment related to accounting
for payroll at USAID.

The Desktop Procedures, prepared by CAR, identified the different roles
of the CAR, Accounting, and CMP Divisions. The OIG noted that the
Accounting Division did not consistently require email notification to
CMP to activate the disbursement process, as required by the Desktop
Procedures. This email represents an audit trail that would identify the
date that payroll disbursement information would be available for
posting to the accounting system, and would provide assurance that the
CMP entered payroll information into the accounting system timely.

       Recommendation No. 2.:           We recommend that the
       Accounting and Central Accounting and Reporting Divisions
       of USAID’s Office of Financial Management incorporate the
       Desktop Procedure – Payroll Obligation Tracking into a
       revised document describing all aspects of the payroll
       accounting process, including supervisory review and
       approval standards and periodic tests of controls to ensure
       that established procedures are consistently followed.

Opportunities for Improved Compliance with GAO Internal Control
Standards and for Monitoring Employee Salary Advance Activity

 Summary: Procedures for monitoring employee salary advance activity
 were not effectively understood by Division managers involved in the
 payroll accounting process.      This understanding is an essential
 component of GAO’s Standards for Internal Control.                The
 misunderstandings occurred when some of the responsibilities for
 reconciling, monitoring and accounting for employee salary advances
 were reassigned from a USAID contractor to several different FM
 divisions, amplified by turnover in USAID’s Office of Financial
 Management. As a result, USAID managers were unsure of who was
 providing the accounting support for monthly employee salary advances,
 and internal control over accounting for employee salary advances was
Anot effective.
s




                                                                 11
As, required by the Federal Managers’ Financial Integrity Act of 1982
(FMFIA), the GAO issues standards for internal control in government.3
These standards provide the overall framework for establishing and
maintaining internal control and for identifying and addressing major
performance and management challenges and areas at greatest risk of
fraud, waste, abuse, and mismanagement.4 An integral component of an
organization’s management provides reasonable assurance that the
following objectives are being achieved: effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with
applicable laws and regulations.5 GAO has five standards for Internal
Control:6

        •    Control Environment – Management and employees should
             establish and maintain an environment throughout the
             organization that sets a positive and supportive attitude
             toward internal control and conscientious management.

        •    Risk Assessment – Internal control should provide for an
             assessment of the risks the agency faces from both external
             and internal sources.

        •    Control Activities – Internal control activities help ensure that
             management’s directives are carried out.            The control
             activities should be effective and efficient in accomplishing
             the agency’s control objectives.

        •    Information and Communications – Information should be
             recorded and communicated to management and others
             within the entity who need it and in a form and within a time
             frame that enables them to carry out their internal control and
             other responsibilities.

        •    Monitoring – Internal control monitoring should assess the
             quality of performance over time and ensure that the findings
             of audits and other reviews are promptly resolved.



3
  GAO – Standards for Internal Control in the Federal Government (GAO/AIMD-00-
21.3.1), page 1. This Standard has been updated (effective beginning with fiscal year
2000) to reflect use of information technology in government operations, human
capital, and updated guidance as provided by the public sector. (GAO/AIMD-00-
21.3.1), page 2.
4
  GAO – Standards for Internal Control in the Federal Government (GAO/AMID-00-
21.3.1), page 1.
5
  GAO– Standards for Internal Control in the Federal Government (GAO/AMID-00-
21.3.1), page 4-20.
6
  GAO– Standards for Internal Control in the Federal Government (GAO/AMID-00-
21.3.1), page 7.



                                                                                        12
These standards define the minimum level of quality acceptable for
internal control in government and provide the basis against which
internal control is to be evaluated7. These standards also apply to all
aspects of an agency’s operations: programmatic, financial and
compliance8.       In implementing these standards, management is
responsible for developing the detailed policies, procedures, and
practices to fit their agency’s operations and to ensure that they are built
into an integral part of operations9.

During the audit, the OIG noted that managers from the Accounting,
CAR, and Payroll Divisions did not consider their collective roles with
respect to USAID employee salary advances, and were unsure of who
was actually recording, reconciling, and monitoring employee salary
advance activity. As a result of the OIG’s work and FM’s internal
communication, these same managers were able to resolve and clarify
issues with respect to accounting for payroll expenses, financial
reporting policies, procedures, and responsibilities, during the course of
the audit.

Several factors combined to affect communication between the
Accounting, CAR, and Payroll Divisions, in understanding accounting
for and reconciling employee salary advance activity. In FY 2003,
payroll reconciliation responsibilities were reassigned from USAID’s
contractor (IBM) to USAID direct hire employees, and representatives of
several FM components were unsure of how this affected accounting for
employee salary advances. Employee salary advances are actually only
a small part of the overall payroll reconciliation process, with a balance
of approximately $400,000 as of June 30, 2004, compared to monthly
payroll activity of approximately $20 million. Also, a key Accounting
Division employee responsible for preparing payroll obligations,
recording post-reconciliation adjustments, and monitoring employee
salary advances for the Payroll Division, resigned during FY 2004.
Additional employee turnover required USAID/FM to reassess its top
financial management priorities and USAID’s efforts to establish new
payroll reconciliation procedures took longer than expected to be
completed and implemented. As a result, the procedures for monitoring
employee salary advance activity were not effectively understood by all
FM components involved in the process.

Overall, USAID does comply with GAO’s Internal Control Standards
with respect to payroll accounting and managers have communicated the
7
  GAO - Standards for Internal Control in the Federal Government (GAO/AMID-00-
21.3.1), page 7.
8
  GAO - Standards for Internal Control in the Federal Government (GAO/AMID-00-
21.3.1), page 7.
9
  GAO - Standards for Internal Control in the Federal Government (GAO/AMID-00-
21.3.1), page 7.



                                                                          13
importance of effective controls to all employees. The completed
payroll reconciliation was reviewed and approved upon completion, and
progress on reconciliations is consistently monitored and reported to
USAID senior management through a monthly Payroll Status Update.
USAID management also monitors payroll reports from the NFC and
USAID contractors reconcile employee advances every quarter.

       Recommendation No. 3: We recommend that USAID’s
       Office of Financial Management maintain procedural
       documentation on its responsibilities and those of the U.S.
       Department of Agriculture’s National Finance Center, with
       respect to the establishment, monitoring and repayment of
       employee salary advances. The procedural responsibilities
       should be disseminated to appropriate staff.

USAID’s Instructions for Reconciling the Monthly Payroll Should
Include Additional Guidance

Summary: USAID’s current procedures for reconciling the monthly
payroll did not include some of the information contained in the original
IBM document because of the recent reassignment of the reconciliation
responsibility from IBM contractors to USAID direct hire employees.
Written policies and procedures are essential in maintaining an effective
internal control environment and in ensuring that financial information
is accurate and reliable. Failure to document all of the necessary
reconciliation procedures and responsibilities could result in the
distribution of procedures that are not accurate or complete. For FY
2003 and 2004, it contributed to USAID’s inability to perform many of
its payroll reconciliations. If reliable written procedures are not
available, employee turnover, retirements, or reassignments could
continue to affect the Agency’s ability to complete the monthly
reconciliations.

PricewaterhouseCoopers Consulting (now part of IBM) prepared
USAID’s Fiscal Year 2001 Payroll Disbursements Reconciliation
Operating Procedures. During Fiscal Year 2004, USAID created the
Instructions for Reconciling the Monthly Payroll. USAID also maintains
a Desktop Procedure - Payroll Obligation Tracking document that
clarifies the various Divisions’ roles in the payroll obligation process. A
comparison of IBM’s operating procedures and USAID’s monthly
payroll instructions disclosed that overall, USAID’s instructions did not
address or provide guidance for the following areas:

       •   Analyzing and resolving Phoenix General Ledger and
           Treasury (SF 6653) differences
       •   Preparer sign-off and routing


                                                                         14
       •   Reconciliation review and approval
       •   Identification and Recording Employee Salary Advances and
           Collections of Employee Salary Advances
       •   Reconciling outstanding balance of Employee Salary
           Advances
       •   Analyzing and resolving Phoenix General Ledger and NFC
           Status of Debtor Report differences
       •   Identification and recording of employee indebtedness Other
           Than Salary Advances (Administrative Debt)
       •   Reconciling outstanding balance of Employee Administrative
           Indebtedness

Based on OIG’s analysis, the IBM procedures address all of the
necessary actions required by USAID in completing its periodic payroll
reconciliations.

       Recommendation No. 4: We recommend that USAID’s
       Office of Financial Management incorporate all procedures
       in International Business Machines’ Payroll Disbursements
       Reconciliation    Operating    Procedures     into    USAID’s
       Instructions for Reconciling Monthly Payroll, and circulate the
       completed document to employees involved in the payroll
       reconciliation process.




                                                                15
Evaluation of   We have received USAID’s management comments to the findings and
Management      recommendations included in our draft report. USAID management
                agreed with each of the four recommendations included in the report.
Comments
                We have evaluated USAID management comments on the
                recommendations and have reached management decisions on all four
                recommendations. The following is a brief summary of USAID’s
                management comments on each of the four recommendations included
                in this report and our evaluation of those comments.

                Recommendation No. 1

                USAID management agreed with Recommendation No. 1. Central
                Accounting and Reporting has completed all 2004 payroll
                reconciliations.

                Recommendation No. 2

                USAID management agreed with Recommendation No. 2. FM has
                prepared a consolidated Payroll Disbursements Reconciliation and
                Accounting Procedures document describing all aspects of the payroll
                accounting process.

                Recommendation No. 3

                USAID management agreed with Recommendation No. 3. FM has
                incorporated procedural documentation into its revised Payroll
                Disbursements Reconciliation and Accounting Procedures.

                Recommendation No. 4

                USAID management agreed with Recommendation No. 4. FM has
                incorporated the IBM Payroll Disbursements Reconciliation Operating
                Procedures into its revised Payroll Disbursements Reconciliation and
                Accounting Procedures.

                We reviewed and assessed the comments, actions taken, and documents
                prepared by USAID and consider final action to be complete on all four
                recommendations.




                                                                                     16
                                                                       Appendix I

Scope and     The audit was designed to answer the following audit objective: Is
Methodology   USAID’s monthly payroll reconciliation with the NFC and Treasury
              complete, and are established procedures being followed? The Office of
              Inspector General/Washington D.C. conducted this audit in accordance
              with U.S. generally accepted government auditing standards.

              The audit fieldwork was conducted between April 12 and September 8,
              2004, in Washington, D.C. Our initial audit scope included reviewing
              USAID’s FY 2003 and FY 2004 payroll reconciliations and related
              supporting documentation. Because of delays with completing the
              outstanding reconciliations, the FY 2003 and 2004 reconciliations were
              incomplete, untimely, and not available for review during audit
              fieldwork. Therefore, we limited our scope to the one payroll
              reconciliation that was completed during audit fieldwork. In planning
              and performing the audit, we obtained an understanding of controls
              related to USAID’s accounting for payroll expenses, including the
              overall payroll reconciliation, obligation, and disbursement processes.
              There were no prior audit findings available for review.

              Methodology

              In planning and performing the audit, we obtained an understanding of
              applicable federal laws and regulations, USAID’s policies, procedures, and
              directives for reconciling payroll transactions. We did not develop
              materiality thresholds for the audit objective.

              To answer the audit objective, we reviewed the one payroll reconciliation
              that had been completed during audit fieldwork. Our review included an
              examination of all related supporting documentation. Additionally, we
              interviewed USAID employees and IBM contractors to obtain and
              understanding of the payroll reconciliation and disbursement processes and
              evaluated internal controls that management established to process and
              record payroll expenses. We also reviewed USAID’s FY 2004 Instructions
              for Reconciling the Monthly Payroll, Desktop Procedures – Payroll
              Obligation Tracking, and IBM’s FY 2001 Payroll Disbursements
              Reconciliation Operating Procedures.




                                                                                 17
                                                                       Appendix II


Management
Comments                                                      November 1, 2004




MEMORANDUM

TO: Director, IG/A/FA, Andrew Katsaros

FROM:        Deputy CFO, David Ostermeyer /s/

SUBJECT: Management Response to Draft Independent Auditor's
Report on Audit of USAID Payroll Reconciliations (Report No. 0-000-
05-001-F)


Thank you for the opportunity to respond to the draft audit report. The report
contains four recommendations to improve USAID’s payroll reconciliation
procedures. Management concurs with all of the proposed recommendations
and has implemented corrective actions. Documentation supporting our
corrective actions is available for your immediate review. Management
respectfully requests that the four audit recommendations be closed upon the
issuance of the audit report.

Following are our management decisions and corrective actions regarding the
proposed audit recommendations:

Recommendation No. 1: We recommend that the Central Accounting and
Reporting Division complete all fiscal year 2004 outstanding payroll
reconciliations before the fiscal year 2004 financial statements are presented
to the Office of Inspector General and the Office of Management and Budget.




                                                                                 18
Management agrees with the recommendation. Central Accounting and
Reporting Division has completed all 2004 payroll reconciliations, as
recommended.

Recommendation No. 2.: We recommend that the Accounting and Central
Accounting and Reporting Divisions of USAID’s Office of Financial
Management incorporate the Desktop Procedure – Payroll Obligation
Tracking into a revised document describing all aspects of the payroll
accounting process, including supervisory review and approval standards and
periodic tests of controls.

Management agrees with the recommendation. FM has incorporated the
Desktop Procedure – Payroll Obligation Tracking into a revised document
entitled “Payroll Disbursements Reconciliation and Accounting Procedures”
that describes all aspects of the payroll accounting process, including
supervisory review and approval standards and periodic tests of controls.

Recommendation No. 3: We recommend that USAID’s Office of Financial
Management maintain procedural documentation on its responsibilities, and
those of the U.S. Department of Agriculture’s National Finance Center, with
respect to the establishment, monitoring, and repayment of employee salary
advances.

Management agrees with the recommendation. FM has incorporated the
recommended procedural documentation into the revised “Payroll
Disbursements Reconciliation and Accounting Procedures”.

Recommendation No. 4: We recommend that USAID Office of Financial
Management incorporate all procedures in International Business Machines’
Payroll Disbursements Reconciliation Operating Procedures into USAID’s
Instructions for Reconciling Monthly Payroll, and circulate the completed
document to employees involved in the payroll reconciliation process.

Management agrees with the recommendation. FM has incorporated all
procedures in International Business Machines’ Payroll Disbursements
Reconciliation Operating Procedures into a revised document entitled
“Payroll Disbursements Reconciliation and Accounting Procedures”, and
circulated the completed document to employees involved in the payroll
reconciliation process.



                                                                              19
